HHS/OIG, Audit -"Review of Medicaid Fee-for-Service Payments for Beneficiaries Enrolled in Medicare Managed Care,"(A-05-02-00085)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Fee-for-Service Payments for Beneficiaries Enrolled in Medicare Managed Care," (A-05-02-00085)
June 8, 2004
Complete
Text of Report is available in PDF format (281 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether Ohio made unallowable Medicaid fee-for-service
(FFS) payments for beneficiaries enrolled in Medicare managed care organizations (MCO).  Based on a statistical sample
of 200 claims, we estimated that the Ohio Department of Job and Family Services paid unallowable Medicaid claims totaling
$4.6 million ($2.7 million Federal share) for services covered by Medicare MCOs during the fiscal year ended June 30, 2001.  The
State's processing system for Medicaid claims did not have controls to prevent payment of FFS claims for services covered
by Medicare managed care.  We recommended financial adjustments and improvements to internal controls.